App. 1
Appellate Courts Case Information
Supreme Court
Court data last updated: 02/09/2021 10:31 AM
Disposition
COLONE v. S.C. (GITHUB)
Division SF
Case Number S265307
Only the following dispositions are displayed below:
Orders Denying Petitions, Orders Granting Rehearing
and Opinions. Go to the Docket Entries screen for information regarding orders granting review.
Case Citation:
none
Date

Description

01/13/2021 Petition for review denied
Click here to request automatic e-mail notiﬁcations
about this case.

App. 2
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION ONE
JOSEPH COLONE,
Petitioner,

A160989
(San Francisco
County Super. Ct.
No. CPF20517083)

v.
SUPERIOR COURT FOR
THE CITY AND COUNTY
OF SAN FRANCISCO,
Respondent;
GITHUB, INC.,
Real Party in Interest.

(Filed Oct. 21, 2020)
BY THE COURT:
The petition for writ of mandate or other appropriate relief is denied. (18 U.S.C. § 2702(a); see O’Grady
v. Superior Court (2006) 139 Cal.App.4th 1423, 1447
[“Since the [Stored Communications] Act makes no exception for civil discovery and no repugnancy has been
shown between a denial of such discovery and congressional intent or purpose, the Act must be applied, in
accordance with its plain terms, to render unenforceable the subpoenas seeking to compel [electronic communications service providers] to disclose the contents
of emails stored on their facilities.”]; Facebook, Inc. v.

App. 3
Wint (D.C. 2019) 199 A.3d 625, 628-629 [collecting
unanimous case authorities holding that Stored
Communications Act prohibits disclosure of the contents of covered communications in response to criminal defendants’ subpoenas]; see also Facebook, Inc. v.
Superior Court (Hunter) (2018) 4 Cal.5th 1245, 1271
[“Congress intended section 2702 to prohibit disclosure
by providers of . . . private or restricted . . . social media communications.”].)
The applications of Megan A. Crowley and Alexander E. Berengaut for admission pro hac vice are
granted. (Cal. Rules of Court, rule 9.40(a), (d).)
Date: 10/21/2020

/s/

Humes, P. J.
PRESIDING JUSTICE

Before: Humes, P.J., Banke, J., and Sanchez, J.

P.J.

App. 4
W. DOUGLAS SPRAGUE (State Bar No. 202121)
COVINGTON & BURLING LLP
Salesforce Tower
415 Mission Street, Suite 5400
San Francisco, California 94105-2533
Telephone: (415) 591-6000
Facsimile: (415) 591-600
Email: dsprague@cov.com
Attorney for Respondent GitHub, Inc.
SUPERIOR COURT FOR
THE STATE OF CALIFORNIA
FOR THE COUNTY OF SAN FRANCISCO
IN RE APPLICATION OF: Case No. CPF-20 517083
JOSEPH COLONE
[PROPOSED] ORDER
DENYING PETITIONER
JOSEPH COLONE’S
AMENDED NOTICE OF
MOTION AND MOTION TO
COMPEL PRODUCTION
OF RECORDS PURSUANT
TO CAL. PENAL CODE
1334.2
Hearing Date: July 28, 2020
Hearing Time: 9:00 a.m.
Department: 302
Action Filed: May 1, 2020
(Filed Jul. 28, 2020)
Applicant Joseph Colone’s amended motion to
compel production of records pursuant to California

App. 5
Penal Code § 1334.2 is denied. Assuming arguendo
that section 1334.2 applies, the subpoena Colone
served on Respondent Github, Inc. is prohibited by
the Stored Communications Act, and therefore must
be quashed. The SCA provides that, subject to certain
conditions and exceptions, “a person or entity providing an electronic communication service to the public
shall not knowingly divulge to any person or entity the
contents of a communication while in electronic storage by that service.” (18 U.S.C. § 2702(a)(1).) Similarly,
subject to certain additional conditions, “a person or
entity providing remote computing service to the public shall not knowingly divulge to any person or entity
the contents of any communication which is carried or
maintained on that service.” (18 U.S.C. § 2702(a)(2).)
Colone does not contest that Github is both an electronic communication service and a provider of remote
computing service, and that the ESR source code and
other materials it seeks to compel constitute communications in electronic storage. Colone makes no attempt to show that the compelled disclosure it seeks
falls within any enumerated statutory exception to the
SCA. (See 18 U.S.C. § 2702(b).) Accordingly, under controlling California authority that Colone fails squarely
to address, “the Act must be applied, in accordance
with its plain terms, to render unenforceable the subpoena” seeking to compel Github to disclose the source
code and other materials stored on its facilities.
(O’Grady v. Superior Court (2006) 139 Cal.App.4th
1423, 1447; see also Facebook, Inc. v. Wint (D.C.Ct.App.
2019) 199 A.3d 625, 629 [“every court to consider
the issue has concluded that the SCA’s general

App. 6
prohibition on disclosure of the contents of covered
communications applies to criminal defendants’ subpoenas”] [collecting authorities].) If Colone wishes to
review the source code, he may do so by entering into
the non-disclosure agreement required by ESR.
DATED: July 28, 2020
/s/ Ethan P. Schulman
The Honorable
Judge Ethan P. Schulman

